<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]


 
                           ENERGY AND WATER DEVELOPMENT 
                       APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:36 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Landrieu, Alexander, Graham, 
and Hoeven.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ, UNITED 
            STATES AIR FORCE (Retired), ADMINISTRATOR
ACCOMPANIED BY:
        DONALD COOK, PH.D., DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS
        ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
            NONPROLIFERATION
        ADMIRAL JOHN RICHARDSON, UNITED STATES NAVY, DEPUTY 
            ADMINISTRATOR, OFFICE OF NAVAL REACTORS


             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN


    Senator Feinstein. Good afternoon, ladies and gentlemen, 
and welcome to the Energy and Water Subcommittee's hearing on 
the National Nuclear Security Administration's (NNSA) fiscal 
year 2015 budget request. NNSA has requested $11.658 billion 
for fiscal year 2015. That's an increase of $451 million, or 4 
percent, from fiscal year 2014 levels. If the budget request 
were enacted, NNSA would make up 42 percent of the Department 
of Energy's budget in fiscal year 2015. 42 percent--that's the 
highest percentage in the last 5 years.
    Now, the staff tells me that there have been two major 
nonproliferation accomplishments. The first is the successful 
completion of what's called Megatons to Megawatts. Over its 20-
year life, the Russians dismantled about 20,000 nuclear 
warheads and converted their high enriched uranium cores into 
fuel. On November 14, 2013, the final shipment of civilian 
nuclear reactor fuel made from Soviet atomic bombs left Russia 
for the United States, and the ship arrived in Baltimore on 
December 10.
    The program supplied 50 percent of the fuel for U.S. 
nuclear reactors and accounted for 10 percent of all of the 
electricity generated in the United States. I think that's very 
good news. The cost to the United States over those 20 years 
was only $280 million. So for $280 million we have essentially 
been able to dismantle 20,000 nuclear warheads and converted 
their high enriched uranium cores into fuel.
    The second major accomplishment was the high amount of 
dangerous nuclear materials removed around the world. The 
nonproliferation program removed 2,990 kilograms of highly 
enriched uranium and plutonium in 4 years. That exceeded the 
goal by 759 kilograms, enough for another 30 nuclear weapons.
    Even more importantly, another 12 countries, for a total 
now of 26 nations, were completely cleaned out of highly 
enriched uranium over the last 4 years, which means terrorists 
can no longer find the raw materials for nuclear devices in 
those countries. Two of those countries were Libya and Ukraine. 
The nonproliferation program was able to remove material in 
Libya before the fall of Qadafi and from Ukraine before the 
current turmoil.
    Unfortunately, rather than building on that momentum and 
taking advantage of commitments made at the nuclear security 
summits, the NNSA budget request cuts nonproliferation by $400 
million, or 20 percent. That's unacceptable to me because one 
of my greatest interests is nuclear nonproliferation and it's 
the downing of nuclear weapons across this world.
    The hardest hit program would be the Global Threat 
Reduction Initiative, which has removed dangerous material from 
all over. I can't think of a nuclear security program with a 
better return on investment. It costs only $320 million to 
clean out 12 countries. That's half the cost of funding the B-
61 life extension program for just 1 year.
    Too many threats remain to cut these funds so sharply. 
Significant stockpiles of highly enriched uranium exist in too 
many countries and global inventories of plutonium are steadily 
rising. More than 100 thefts regarding nuclear and radioactive 
material are reported every year to the International Atomic 
Energy Agency. Al Qaeda and other terrorist groups are still 
actively seeking to acquire weapons-grade material. So we must 
remain vigilant, and in my view this is a very important 
program.
    In contrast, the biggest increase to NNSA's budget is for 
nuclear weapons activities. The budget request shows an 
increase of $534 million or 7 percent. At our hearing 3 weeks 
ago, Secretary Moniz told me that the national security funding 
was constrained and he had to make hard choices. And yet, NNSA 
was able to find an additional $534 million for nuclear weapons 
and an additional $282 million for naval reactors.
    Candidly, I don't see hard choices being made in this 
budget request.
    I would add that the increase to weapons and cuts to 
nonproliferation are inconsistent with the administration's 
stated priorities. This budget would cut programs that reduce 
the threat of nuclear terrorism while significantly increasing 
funding for nuclear weapons, contrary to the stated goal of 
reducing our reliance on nuclear weapons.
    For the last 2 years, I have voiced concerns that 
modernizing the nuclear weapons stockpile should not come at 
the expense of nonproliferation activities. This year is an 
egregious example of just that happening, and I'm determined 
that it will not stand.
    These two graphs show clearly that the nonproliferation 
program has become the payer for the nuclear weapons program. 
In this you see nuclear weapons activities going up on the top 
graph and you see nonproliferation funding going down on the 
bottom graph. It's just simply not acceptable to this chairman.
    [The graphs follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
            
    Senator Feinstein. As you can see, if the fiscal year 2015 
budget request were enacted, the nuclear weapons budget would 
have increased by $1.9 billion, or 30 percent, since fiscal 
year 2010. Fiscal year 2015 nuclear weapons funding would be 
$8.3 billion. At the same time, the nonproliferation budget 
would see a decrease, $764 million or 34 percent. Funding would 
hit a new, new, new low of $1.5 billion. I hope you will 
provide an explanation today of the budget tradeoffs you made 
and why you made them and why the trend in cutting 
nonproliferation funding to pay for weapons activities does not 
concern you.
    Joining us today to explore these important national 
security issues is Lieutenant General Frank Klotz, the newly 
confirmed NNSA Administrator, and we welcome you into the hot 
seat right up front, so you'll get used to it. We don't want to 
give you an easy landing. Congratulations on the confirmation, 
and I think I speak for the subcommittee by saying that we look 
forward to working with you to address governance and project 
management problems, which I'm sure you know about by now, in 
NNSA.
    Also at the table to answer questions, but not offer 
testimony: Dr. Donald Cook, Deputy Administrator for Defense 
Programs; Anne Harrington, Deputy Administrator for Defense 
Nuclear Nonproliferation; and Admiral John Richardson, Deputy 
Administrator for the Office of Naval Reactors.
    I must say, I just met with Admiral Richardson and I fully 
understand his presentation as to why we need to do certain 
things. My problem is taking it out of nonproliferation. I have 
great respect for the Admiral and the ships that he is running 
today.


                           PREPARED STATEMENT


    So thank you very much for taking time out of your 
schedules to be here. One of my great joys is to be able to 
work with a wonderful ranking member. We've worked together on 
trying to get a nuclear waste policy. We now have a new 
chairman, sitting to my right, of the Energy Committee, Senator 
Alexander. I want Senator Landrieu to know that we have a bill 
that Senator Murkowski, Senator Alexander, and I have signed 
off on, that we worked with Senator Bingaman when he was chair 
and then we worked with Senator Wyden; and now we would like 
very much to work with you and see if we can't move it.
    Senator Landrieu. Thank you, Madam Chair. I appreciate that 
and look forward to working with the both of you on it.
    Senator Feinstein. Thank you.
    Senator Landrieu. We'll get to it as soon as we can.
    Senator Feinstein. Thank you.
    [The statement follows:]
             Prepared Statement of Senator Dianne Feinstein
    Good afternoon ladies and gentlemen and welcome to the Energy and 
Water Subcommittee's hearing on the National Nuclear Security 
Administration's fiscal year 2015 budget request.
    National Nuclear Security Administration (NNSA) has requested 
$11.658 billion for fiscal year 2015--an increase of $451 million or 4 
percent from fiscal year 2014 levels.
    If the budget request were enacted, NNSA would make up 42 percent 
of the Department of Energy's budget in fiscal year 2015--the highest 
percentage in the last 5 years.
                            nonproliferation
    Before addressing specific funding requests, I would like to 
quickly highlight two major nonproliferation accomplishments.
    The first is the successful completion of what is called Megatons 
to Megawatts. Over its 20 year life, the Russians dismantled about 
20,000 nuclear warheads and converted their high-enriched uranium cores 
into fuel.
    On November 14, 2013, the final shipment of civilian nuclear 
reactor fuel made from Soviet atomic bombs left Russia for the United 
States and the ship arrived in Baltimore on December 10.
    The program supplied 50 percent of the fuel for U.S. nuclear 
reactors and accounted for 10 percent of all the electricity generated 
in the United States.
    The cost to the United States over those 20 years was only $280 
million.
    The second major accomplishment was the high amount of dangerous 
nuclear materials removed from around the world.
    The nonproliferation program removed 2,990 kilograms of highly 
enriched uranium and plutonium in 4 years, exceeding its goal by 759 
kilograms--enough for another 30 nuclear weapons.
    Even more importantly, another 12 countries--for a total of 26 
nations--were completely cleaned out of highly enriched uranium over 
the last 4 years, which means terrorists can no longer find the raw 
materials for nuclear devices in those countries.
    Two of those countries were Libya and Ukraine. The nonproliferation 
program was able to remove material in Libya before the fall of Qaddafi 
and from Ukraine before the current turmoil.
    Unfortunately, rather than building on that momentum and taking 
advantage of commitments made at the Nuclear Security Summits, the NNSA 
budget request cuts nonproliferation by $400 million, or 20 percent.
    The hardest hit program would be the Global Threat Reduction 
Initiative, which has removed dangerous material from all over the 
world. I can't think of a nuclear security program with a better return 
on investment.
    It cost only $320 million to clean out 12 countries--that's half 
the cost of funding the B61 life extension program for just 1 year.
    Too many threats remain to cut these funds so sharply. Significant 
stockpiles of highly enriched uranium exist in too many countries, and 
global inventories of plutonium are steadily rising.
    More than 100 thefts involving nuclear and radioactive material are 
reported every year to the International Atomic Energy Agency.
    Al-Qaeda and other terrorist groups are still actively seeking to 
acquire weapons-grade material. We must remain vigilant.
                        nuclear weapons program
    In contrast, the biggest increase to NNSA's budget is for nuclear 
weapons activities. The budget request shows an increase of $534 
million or 7 percent.
    At our last hearing 3 weeks ago, Secretary Moniz told me that 
national security funding was constrained and he had to make hard 
choices. And yet, NNSA was able to find an additional $534 million for 
nuclear weapons, and an additional $282 million for naval reactors.
    Candidly, I don't see hard choices being made in this budget 
request.
    I would add that the increase to weapons and cuts to 
nonproliferation are inconsistent with the administration's stated 
priorities.
    This budget would cut programs that reduce the threat of nuclear 
terrorism while significantly increasing funding for nuclear weapons, 
contrary to the stated goal of reducing our reliance on nuclear 
weapons.
    For the last 2 years, I have voiced concerns that modernizing the 
nuclear weapons stockpile should not come at the expense of 
nonproliferation activities. This year is an egregious example of that 
happening.
    These two graphs clearly show that the nonproliferation program has 
become the payer for the nuclear weapons program.
    [The graphs follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]       
    
    As you can see, if the fiscal year 2015 budget request were 
enacted, the nuclear weapons budget would have increased by $1.9 
billion, or 30 percent, since fiscal year 2010. Fiscal year 2015 
nuclear weapons funding would be $8.3 billion.
    At the same time, the nonproliferation budget would see a decrease 
of $764 million, or 34 percent. Funding would hit a new low of $1.5 
billion.
    I hope you will provide an explanation today of the budget 
tradeoffs you made and why the trend in cutting nonproliferation 
funding to pay for weapons activities does not concern you.
                          witness introduction
    Joining us today to explore these important national security 
issues is Lieutenant General Frank Klotz, the newly confirmed NNSA 
Administrator.
    Congratulations on your confirmation. I look forward to working 
with you to address governance and project management problems at NNSA.
    Also at the table to answer questions but not offer testimony: Dr. 
Donald Cook, Deputy Administrator for Defense Programs, Ms. Anne 
Harrington, Deputy Administrator for Defense Nuclear Nonproliferation, 
and Admiral John Richardson, Deputy Administrator for the Office of 
Naval Reactors.
    Thank you for taking time out of your schedules to be here today.

    Senator Feinstein. Now, Mr. Vice Chairman, I thank you for 
being the wonderful man that you are, the ability to work with 
you; if you would like to make an opening statement.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman.
    It's a treat to work with Senator Feinstein. I think all of 
you know that. She has a--she's straightforward and 
plainspeaking and knows how to make a decision, and I like that 
very much. And she cares a lot about this country and what 
we're doing.
    I would say to our new chairman of the Energy Committee, we 
do look forward to working on the nuclear waste. If we're going 
to have a nuclear industry in the country, we've got to have a 
place to put the waste. We have a political dispute over Yucca 
Mountain. Even if we opened Yucca Mountain, it would be full, 
and we need to move ahead. So I'm delighted you're in that 
position to work with us on that and on the Appropriations 
Committee as well.
    I saw some new reports this week about a coalition of 
people concerned about the environment who are worried about 
our nuclear plants because they're being undercut by a variety 
of forces right now. We don't want to lose that important 
source of clean electricity.
    Admiral Klotz, welcome, and welcome to all the witnesses 
who are here. I have two areas of concern and I'll get to them 
in my questions, but I'll talk about those. The first I'd put 
under the ``light at the end of the tunnel'' category, 
Administrator Klotz, and that has to do with the red team 
report that's coming out this week about controlling costs on 
the new uranium facility at Oak Ridge.
    Senator Feinstein and I have been working together as hard 
as on anything as--well, let me put it this way: We have worked 
hard to try to find a way to control costs on these great big 
energy projects, which are the largest construction projects in 
the United States. And we sit here astonished as we hear about 
a project that starts off with an estimate of a few hundred 
million dollars and the next thing we know it's $6 billion. I'm 
talking about specifically the uranium project at Oak Ridge, 
the plutonium project out West, the MO<INF>X</INF> project in 
South Carolina, which Senator Graham talks about. And then 
we're a 9 or 10 percent participant in a fusion project 
overseas.
    It's difficult for us--our solution was the very simple 
thing of saying, ``Give us a single accountable person, let's 
say for the plutonium project, or the uranium project, and we 
want to meet with that person on a regular basis and have a 
report. And before that, we want it 90 percent designed before 
you start any construction.'' So 90 percent designed before you 
start construction, and then we want to meet with a single 
accountable person over a period of time and have a report 
about the things that's changed.
    We know things always change. We know that the 
appropriations process is a part of the problem. But if we have 
a plan as I just described, we believe we can help keep these 
projects on time and on budget. We're talking about saving 
billions of dollars, either to reduce the debt or some could be 
used for the nonproliferation objectives that the Senator just 
talked about, or many other things that we in this committee--
we have Army Corps of Engineers needs; we have a whole series 
of items that we need money. The uranium project happens to be 
in Tennessee, but we're taxpayers, too, and we want a project 
that makes sense to the taxpayers.
    Now, the light at the end of the tunnel is this red team 
review which the Secretary instituted and which we've all been 
briefed on, our staffs have, and which will be, I understand, 
public this week. The elements of it are pretty well known. One 
is a regular review, intensive review.
    Number two, one person in charge who can coordinate 
everything. Now, that's hard to do in the Government, because 
you've got different moving parts in a great big policy. But a 
single person who can say, ``Now, we're going to do this ahead 
of this and that ahead of that and this ahead of this,'' and 
have the clout to do it.
    And a focus on whatever the low-cost alternative is. For 
example, it's publicly known that in the uranium facility the 
low-cost alternative could be to have two buildings instead of 
one and have the highly secure--the things that need high 
security, in one building, which costs several times as much as 
the building for the things that need low security. That seems 
like such a sensible idea, but that's the kind of thing we're 
talking about. And then to continue that review, have a review 
every 6 months or so of the same kind to take care of the 
changes. Now, if that turns out to be in your judgment and in 
ours a satisfactory way to get these big projects under 
control, then that is very important to the taxpayers of this 
country.
    I would suggest that we need to adopt it for the plutonium 
project as well. I know there's been a review of the plutonium 
project, but I don't know yet if there's a single accountable 
person or if there's a review every 6 months.
    And we should do it with the MO<INF>X</INF> project. The 
recommendation is that it be on a warm standby. Well, I think 
we need to know. We've got an agreement with Russia, we've got 
an agreement with South Carolina. I think we need to know what 
is the low-cost alternative for dealing with the agreements 
we've made. On the one hand, we hear all this may cost $5, $10, 
$15, $20 billion. On the other hand, we have a standby 
proposal. Is that really the low-cost alternative that's in the 
best interest of the country? We need to know that.
    The same on the fusion project. I know the Secretary can't 
talk about it. I don't really agree with that ethical 
determination, Madam Chairman. But somebody needs to be able to 
review that in the Department of Energy and see whether it's 
worth our continuing to spend that kind of money.
    The other area--and I won't go into it now--the USEC 
project, which was a production facility using centrifuge 
technology to enrich uranium, filed for bankruptcy. So I'd like 
to ask questions of you when my time comes about what do we do 
about that. How do we go from where we are, bankruptcy of that, 
to a position where the United States is in a position to have 
a domestic uranium enrichment capability for a more limited 
purpose, that is national security needs, and where do we get--
how much money will that take and where do we get the money for 
it since there's none in the budget?
    So those are the two issues, the first one being, I think, 
a very strong, bright glimmer of good news for getting what 
have been out of control projects under control.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you for that statement.
    I hope, General Klotz, that in your opening statement you 
could talk a little bit about USEC as well as the 
MO<INF>X</INF> proposal. I know Senator Graham is very 
interested in that, as we are. It's our understanding that 
there's a new report saying that there is an alternative that 
would save $16 billion. I don't know whether that's fact or 
fiction, but I've just been advised of that. So if you could 
cover those two subjects in your opening remarks, that would be 
appreciated.

         SUMMARY STATEMENT OF LIEUTENANT GENERAL FRANK G. KLOTZ

    General Klotz. Well, thank you very much, Chairwoman 
Feinstein, Ranking Member Alexander, members of this committee. 
I'm honored to be invited, along with my three colleagues here, 
who represent the entire portfolio of the National Nuclear 
Security Administration, to testify before this committee on 
NNSA's proposed fiscal year 2015 budget. I'd also like to 
personally thank both of you for your support of my 
confirmation just a few weeks ago, and I'll do all I possibly 
can in the common endeavor----
    Senator Feinstein. All of us had supported it.
    General Klotz [continuing]. To ensure that--I'll have more 
to say about Senator Landrieu and her great support for Global 
Strike Command when we get to that--in common endeavor to 
ensure the safety and security of the American people, with the 
members and the professional staff of this committee.
    Prior to my confirmation, President Obama released his 
fiscal year 2015 proposed budget and we're here to answer any 
and all questions that you may have in that regard. As you 
pointed out, his request for NNSA is up $451 million to $11.7 
billion for fiscal year 2015. This increase reflects the 
President's deep commitment to nuclear security across the 
globe. The nuclear security enterprise has responsibility for 
an ensuring and critically important national security mission. 
The United States is committed to maintaining a nuclear arsenal 
as long as nuclear weapons exist and that arsenal needs to be 
safe, secure, and effective.
    Our Nation is also committed to leading international 
efforts to limit and reduce nuclear arsenals, to prevent 
nuclear performance and nuclear terrorism, and to secure 
nuclear materials across the globe. In this regard, the 
Administration remains firmly committed to disposing of surplus 
weapons-grade plutonium. However, through an analysis of the 
life cycle cost it has become apparent to NNSA and the 
Department of Energy that disposing of plutonium as 
MO<INF>X</INF> fuel will be significantly more expensive than 
anticipated. Given a life cycle cost estimate for the program 
of approximately $30 billion or more and a challenging budget 
environment, the current MO<INF>X</INF> approach must be 
critically examined alongside costs of other potential options 
to complete the plutonium disposition mission.
    Now, yesterday the Department of Energy and NNSA made 
public, as you pointed out, a cost analysis with a preliminary 
study of the potential options, and that has been posted on our 
Web site, which will serve as a basis for determining the most 
efficient path forward for plutonium disposition.
    We've also determined and will communicate to the 
contractor, MO<INF>X</INF> Services, that we will continue 
construction activities through 2014, retaining the key nuclear 
engineers and highly skilled workers that will be needed 
regardless of the path forward. The Department of Energy and 
NNSA intend to work with the contractor on a plan for placing 
the project in cold standby during fiscal year 2015 and we're 
continuing our ongoing discussions with Congress as you review 
and evaluate the fiscal year 2015 budget request.
    Our investments and expertise in nuclear security goes well 
beyond weapons nonproliferation, however. At every major event 
in the United States, whether it's the Superbowl or last weeks' 
Boston Marathon or the Inauguration, the women and men of the 
NNSA are there working to protect the American people. Through 
our Office of Counterterrorism and Counterproliferation, our 
technical expertise allows NNSA to support national security 
policy and programs of the U.S. Government and conduct domestic 
and international outreach activities to strengthen nuclear 
counterterrorism capabilities through tabletop exercises, 
bilateral dialogues, and technical changes.
    At the end of the day, every organization must deliver on 
the commitments it makes in order to succeed and thrive. NNSA 
is no exception. We have made promises we must keep to sustain 
the nuclear weapons stockpile, to conduct leading edge 
scientific research, to help prevent nuclear materials from 
falling into the hands of terrorists, to support the Navy's 
nuclear reactor program, to repair and modernize our aging 
facilities, to protect the safety and security of our sites, 
our employees, and our public.
    We must do all of this with laser-like focus on managing 
the requirements and costs to provide the needed capability 
with less expense to the American taxpayer. Your continued 
support of NNSA is vital to our capability to do all of these 
things and I urge you to fully support the President's request 
for fiscal year 2015.
    Now, you asked that I say a couple things about the 
American Centrifuge process and the path forward on that. Let 
me say that the Department of Energy believes that maintaining 
a domestic uranium enrichment capability is necessary for 
national security purposes, and that's what I will be focused 
on as the NNSA Administrator.
    As you know, the cooperative agreement expires today. While 
the ACP (American Centrifuge Project) demonstration has been 
successful in advancing the technology, USEC has indicated that 
without additional funding it will have no other option than to 
demobilize the ACP, which would result in the degradation of 
the centrifuge machine and related property that currently is 
utilized by the American Centrifuge Project. So in order to 
protect the Government's interest in the centrifuge machines 
and related equipment and property, we have engaged Oak Ridge 
National Laboratory, the Nation's enrichment technology center 
of excellence, to advise and assist the Department with taking 
actions to promote the continued operability of the advanced 
centrifuges and assessing technical options for meeting 
national security needs.
    This assistance to the Department of Energy will be vital 
in developing a path forward for achieving a reliable and 
economic domestic uranium enrichment capability that serves 
national defense needs and preserves the optionality for 
private sector development.

                           PREPARED STATEMENT

    Now, depending on several variables that may affect the 
level of unobligated low-enriched uranium and the need date for 
that, the Department may pursue a small-scale enrichment 
facility using ACP technology capable of meeting national 
security requirements or determine that there is additional 
time to examine other potential technologies. But we will 
continue to closely monitor the evolving defense program 
requirements to determine if and when and what action is needed 
to acquire additional unobligated low-enriched uranium. Within 
the Department itself, we have formed a Department-wide working 
group, including representatives of NSA, to address the 
national security and broader commercial requirements.
    That completes my opening comments.
    [The statement follows:]
        Prepared Statement of Lieutenant General Frank G. Klotz
    Chairman Feinstein, Ranking Member Alexander, and Members of the 
subcommittee, I come before you today to present the President's fiscal 
year 2015 Budget Request for the Department of Energy's (DOE) National 
Nuclear Security Administration (NNSA).
    The fiscal year 2015 budget request for the DOE is up 2.6 percent 
to $27.9 billion. The NNSA, which comprises over 40 percent of the 
DOE's budget, is up $451 million or 4 percent, to $11.7 billion. In 
today's fiscal climate, this increase is an indication of the 
President's unwavering commitment to nuclear security, as outlined 
nearly 4 years ago in Prague, and reaffirmed last June in Berlin. 
Support in this year's budget request is also due to an unprecedented 
level of transparency and discussion within the interagency on how the 
NNSA can best support implementation of the two key goals of the 
Nuclear Posture Review (NPR): to prevent nuclear proliferation and 
terrorism and to maintain a safe, secure and effective deterrent while 
we reduce the number of nuclear weapons in the stockpile. This budget 
request also supports the major initiatives of Naval Reactors, makes 
investments in physical and cyber security, and funds critical 
infrastructure recapitalization to support effective operations across 
the nuclear security enterprise.
    Within that context, the Secretary and NNSA Leadership understand 
that we have an enduring responsibility to steward the taxpayers' 
dollar effectively and efficiently, and we simply must do better. 
Therefore, NNSA is looking at ways to improve our governance through a 
public interest model that will incentivize mission effective and cost 
efficient solutions to the highest risk nuclear security challenges 
facing our country. We look forward to seeing the interim 
recommendations of the Congressional Advisory Panel on the Governance 
of the NNSA, as well as to reviewing recommendations from other panels 
focused on governance, including the Secretary of Energy's Advisory 
Board and the independent commission to study the DOE Laboratories as 
directed in the fiscal year 2014 Consolidated Appropriations Act.
    Another primary area of focus to support effective and efficient 
implementation of our mission will continue to be project management 
and improving our cost assessment and estimation capabilities. The 
Secretary has reorganized the Department to elevate Management and 
Performance to one of three Under Secretary positions. Within this 
framework, the NNSA is committed to effectively managing its major 
projects and has been driving continued enhancements to contract and 
project management practices through a reorganized Office of 
Acquisition and Project Management (APM). In 2013 the Government 
Accountability Office (GAO) recognized progress at DOE in execution of 
nonmajor projects under $750 million, and narrowed the focus of its 
High Risk List for DOE to mega-scale, unique nuclear construction 
projects costing more than $750 million. APM is leading the NNSA's 
effort to deliver results by strengthening rigorous and well-justified 
alternative assessments and evaluations, providing clear lines of 
authority and accountability for Federal and contractor personnel, and 
improving cost and schedule performance. NNSA is also applying lessons 
learned from the Office of Science project management methods and is 
collaborating across the DOE. At its core, DOE/NNSA's ultimate project 
management goal is to deliver every project on schedule, within budget, 
and fully capable of meeting mission performance, safeguards and 
security, quality assurance, sustainability, and environmental, safety, 
and health requirements.
    The Department has released its new Strategic Plan for 2014-2018, 
with the goal to ``Secure our Nation'' and the strategic objective to 
``enhance national security by maintaining and modernizing the nuclear 
stockpile and nuclear security infrastructure, reducing global nuclear 
threats, providing for nuclear propulsion, improving physical and cyber 
security, and strengthening key science, technology, and engineering 
capabilities.'' The Bipartisan Budget Agreement (BBA) sets firm caps on 
national security spending in fiscal year 2015, and the President's 
Budget request adheres to them so tough choices had to be made across 
the NNSA. While Weapons Activities is up 6.9 percent from fiscal year 
2014 enacted levels, and the Defense Nuclear Nonproliferation (DNN) 
account is down 20.4 percent, the Administration and DOE/NNSA remain 
firmly committed to our nonproliferation efforts and to implementing a 
robust program following the end of the 4-year effort to secure nuclear 
material. In addition, modernization of the nuclear security enterprise 
and sustaining the science and technological base directly supports our 
nonproliferation and counterterrorism missions, so there is great 
synergy between the Weapons and Nonproliferation programs that we will 
continue to leverage. Details of the fiscal year 2015 President's 
Budget Request for the NNSA follow.
                           weapons activities
    The Weapons Activities account request for fiscal year 2015 is $8.3 
billion, an increase of $534 million or 6.9 percent over fiscal year 
2014 enacted levels. It is comprised not only of the Defense Programs 
portfolio, which is responsible for all aspects of stockpile 
management, but also our physical and cyber security activities, our 
emergency response and counterterrorism and counterproliferation 
capabilities, and enterprise-wide infrastructure sustainment. Each 
element is addressed in detail below.
Defense Programs
    The Defense Programs portion of the Weapons Activities account is 
up $499.5 million, or 7.8 percent from fiscal year 2014, to $6.9 
billion. It funds the Nuclear Weapons Council (NWC) approved ``3+2'' 
strategy with some schedule adjustments, which aims to implement NPR 
guidance to reduce the number and types of weapons in the stockpile 
while maintaining a safe, secure and effective deterrent. The request 
also continues to invest in the scientific and engineering foundation 
and in critical infrastructure. Building on last year's jointly 
conducted planning process for nuclear weapons modernization 
activities, DOE/NNSA and DOD agreed on a prioritized plan to meet 
requirements within current fiscal constraints of the Bipartisan Budget 
Act. Specifically, the fiscal year 2015-2019 Budget proposal requests 
funding for the following modernization activities:
  --Complete production of the W76-1 warhead by fiscal year 2019;
  --Achieve the B61-12 life extension program (LEP) First Production 
        Unit (FPU) by second quarter fiscal year 2020;
  --Achieve the W88 ALT 370 FPU by first quarter fiscal year 2020;
  --Defer the interoperable warhead (W78/88-1) LEP FPU by 5 years to 
        fiscal year 2030;
  --Delay the Long-Range Standoff warhead FPU by 1 to 3 years to fiscal 
        year 2025-2027;
  --Continue funding engineering design and to study alternative 
        approaches to deliver the Uranium Processing Facility by 2025.
    The Directed Stockpile Work request at $2.7 billion supports 
transitioning to a smaller, modernized nuclear stockpile while 
continuing sustainment efforts. The requested increase reflects the 
ramp up of Phase 6.3 activities for the B61 LEP and an increase for 
Stockpile Systems, including maintenance, surveillance, plutonium 
sustainment, and tritium program requirements.
    In support of the Research, Development, Test, and Evaluation 
(RDT&E) program, the Campaigns request is $1.8 billion to provide 
increased technical resources needed for the certification of the 
existing stockpile and qualification of LEP options and components. For 
example, within the Inertial Confinement Fusion and High Yield 
Campaign, the National Ignition Facility (NIF) has achieved recent 
success with a stockpile stewardship experiment that exhibited 
significant ``self heating,'' which is an important step essential to 
achieving ignition on the NIF. This platform will be used for years to 
come in studying a multitude of physical processes of relevance to 
nuclear weapons. Today, these physics environments are only accessible 
on laboratory-based high energy density facilities, such as the NIF, 
since the United States has been under a unilateral testing moratorium 
since 1992. The fiscal year 2015 request for the NIF is $328.5 million.
    Another area of significant investment by the DOE is in exascale 
computing. NNSA's Advanced Simulation and Computing Campaign (ASC) 
provide leading edge, high-end modeling, and simulation capabilities 
that capture and allow us to apply all that we know about weapons 
physics and engineering. The fiscal year 2015 ASC budget request 
includes $50 million for the Advanced Technology Development and 
Mitigation sub-program, established in fiscal year 2014, which funds 
projects that pursue long-term simulation and computing goals relevant 
to both exascale computing and the broad national security missions of 
the NNSA. Both the NNSA and DOE's Office of Science continue to 
collaborate in this area of advanced computing systems, with the Office 
of Science request providing $91 million towards the development of 
capable exascale systems.
    Two decades after its beginning, the Stockpile Stewardship Program 
continues to deliver tangible results from the combined use of our 
leading edge computation and experimental tools. Specifically our level 
of understanding of how nuclear weapons work is far greater today than 
when we were testing. A core mission of the DOE remains to certify the 
safety, security and effectiveness of the nuclear deterrent; this is 
done each year by the Lab Directors and STRATCOM Commander, which 
continues to support our unilateral testing moratorium consistent with 
the Comprehensive Test Ban Treaty.
Infrastructure
    The Readiness in Technical Base and Facilities (RTBF) request at 
$2.1 billion supports the underlying physical infrastructure and 
operational readiness for the nuclear security enterprise. The request 
includes funds to upgrade nuclear safety systems, improve the workplace 
environment for plant and laboratory employees, and reduce safety and 
mission risks across the enterprise in support of operational 
readiness. The Site Stewardship request of $82.4 million also ensures 
the overall health and viability of the enterprise.
    Specifically, RTBF construction supports continued design 
activities for the Uranium Processing Facility Project (UPF) at $335.0 
million, an increase of $26 million from fiscal year 2014, while 
assessing whether there are alternative designs to accomplish the 
mission incrementally and at an affordable pace. NNSA remains concerned 
about the cost growth and sequestration impacts facing the UPF Project. 
In January 2014, NNSA chartered Oak Ridge National Laboratory Director 
Thom Mason to lead a team to develop and recommend an alternative 
approach to the UPF Project. NNSA is committed to our build to budget 
strategy to deliver the UPF Project by 2025, with Building 9212 
capabilities, for not more than $4.2-6.5 billion.
    The NNSA continues to pursue steps to maintain continuity of 
plutonium capabilities at Los Alamos National Laboratory (LANL)--to 
include analytical chemistry (AC) and materials characterization (MC) 
capabilities--with a commitment to cease programmatic operations in the 
62-year old Chemistry and Metallurgy Research (CMR) facility by 2019. 
NNSA has developed a three-step Plutonium Infrastructure Strategy, to 
include: (1) Maximizing the use of the Radiological Laboratory Utility 
Office Building (RLUOB); (2) Reusing laboratory space in Plutonium 
Facility (PF)-4; and (3) Evaluating options for modular additions to 
PF-4. The first two steps allow the NNSA to move programmatic 
operations from the CMR facility; the third addresses the PF-4 lifetime 
while enabling production capability and analytical support 
enhancements to meet requirements. NNSA also continues to pursue 
investments in upgrading safety system in PF-4 as part of the overall 
approach to maintaining plutonium capability.
    NNSA's request reflects the partnership between NNSA and DOD to 
modernize the nuclear deterrent, and as in last year's Budget, DOD is 
carrying a separate account for the out-years that contains funds for 
NNSA's Weapons Activities and Naval Reactors. These funds are 
transferred to NNSA during budget development and underscore the close 
link between these activities and DOD nuclear requirements and 
missions. We urge your subcommittee's support for alignment of the 
appropriations process and allocations, including the 302(b) 
allocation, with the President's Budget. The requested allocation, 
within the spending caps set by the Bipartisan Budget Act, support 
these NNSA and DOD priorities. If not achieved, it could place 
modernization funding and implementation of our long-term stockpile 
sustainment strategy at risk.
Physical and Cyber Security
    Improving the effectiveness and efficiency of Departmental 
operations is a top priority. Shortly after beginning his tenure, the 
Secretary of Energy directed the Department to undertake a thorough 
review of our security management. It became clear that DOE's approach 
to securing the Department's assets, including the special nuclear 
materials, could be strengthened by establishing greater accountability 
and clearer lines of authority.
    Therefore, in February, the Secretary announced his new vision for 
enhancing the Department's health, safety, security and independent 
assessments. First, we have put in place a Chief Security Officer (CSO) 
under each of the three Under Secretaries, each empowered and held 
accountable for managing all security operations within their 
organizations. The CSOs will form the nucleus of a new DOE Security 
Committee, chaired by the Associate Deputy Secretary, which will 
develop unified security strategies across the DOE complex and raise 
the focus on protecting our people and DOE physical and information 
assets. Second, we are moving the Department's key support functions 
for security, health and safety under the leadership of the Under 
Secretary for Management and Performance in order to improve the 
effectiveness and efficiency of Departmental operations. Third, we are 
establishing a new Office of Independent Enterprise Assessments (IEA), 
reporting directly to the Office of the Secretary. This reorganization 
will set us on a stronger course to achieving our goals and mission 
more effectively, efficiently and safely.
    In light of these reforms, the primary mission of NNSA's Office of 
Defense Nuclear Security and the Chief Security Office is to develop 
and implement sound security programs to protect Special Nuclear 
Material, people, information, and facilities throughout the nuclear 
security enterprise. The NNSA's Defense Nuclear Security request is 
$618 million to provide protection from a full spectrum of threats for 
NNSA personnel, facilities, nuclear weapons, and information.
    The Information Technology and Cybersecurity (renamed from ``NNSA 
CIO Activities'') request is substantially increased to $179.6 million 
to provide protection against increasing cyber security threats. 
Information Technology and Cybersecurity supports the national nuclear 
security enterprise by providing information technology and 
cybersecurity solutions such as enterprise wireless capabilities and 
continuous monitoring technologies to help meet security and 
proliferation resistance objectives. The increase reflects expenses for 
items such as improvement to the cyber infrastructure at the NNSA 
sites, requirements for classified computing, and Identity Credential 
and Access Management.
Emergency Response and Counterterrorism
    The Nuclear Counterterrorism Incident Response (NCTIR) request of 
$173.4 million applies technical assets from the nuclear security 
enterprise to resolve and manage nuclear and radiological incidents, 
especially those involving terrorism. It addresses this threat by 
maintaining and using response teams to manage the consequences 
domestically or internationally should an attack or incident result in 
radiation exposure to the public. NCTIR conducts training programs to 
train and equip response organizations and uses strategies that 
integrate NNSA expertise with law enforcement or military capabilities 
to locate, identify, and disable a terrorist nuclear device.
    The Counterterrorism and Counterproliferation (CTCP) program 
request is $76.9 million to provide the foundation for the U.S. 
Government's capability to understand and counter nuclear terrorism and 
nuclear threat devices. The program also provides a technical 
understanding of foreign nuclear weapons outside of state control. 
Based on this expertise, the program informs national policies and 
international guidelines, as well as enabling domestic and 
international nuclear counterterrorism engagements.
                    defense nuclear nonproliferation
    The Defense Nuclear Nonproliferation (DNN) request is $1.6 billion, 
a decrease of $398.8 million, or about 20.4 percent, from the fiscal 
year 2014 level. The programs under DNN have been accurately described 
as ``defense by other means.'' The majority of the decrease is due to 
the decision to place the Mixed Oxide (MO<INF>X</INF>) Fuel Fabrication 
Facility construction project at the Savannah River Site in cold stand-
by to allow further study of more efficient options for plutonium 
disposition. Other decreases reflect the conclusion of the President's 
4 year effort to secure nuclear materials worldwide and bring the 
fiscal year 2015 request in line with funding levels before the 
acceleration needed to implement the 4-year effort.
    We have met--and in some cases exceeded--the goals set in April 
2009 following the President's Prague speech by:
  --removing or confirming disposition of 5,113 kilograms of highly 
        enriched uranium (HEU) and separated plutonium from 41 
        countries and Taiwan (enough material for more than 200 nuclear 
        weapons and in excess of the target of 4,353 kilograms);
  --completing material protection, control and accounting (MPC&A) 
        upgrades at 32 buildings containing metric tons of weapons-
        usable material in Russia (for a cumulative total of 218 
        buildings secured in the former Soviet Union since 1994); and
  --working with Russia and former FSU countries to establish effective 
        and sustainable MPC&A capabilities at the national level.
    Going forward in fiscal year 2015, the Administration remains 
firmly committed to disposing of surplus weapon-grade plutonium. Over 
the past year, we have been working closely with the MO<INF>X</INF> 
project contractor and others to determine if there are opportunities 
to make the current MO<INF>X</INF> fuel approach for plutonium 
disposition more efficient. During the same time that we were analyzing 
the current MO<INF>X</INF> fuel approach, we have been analyzing 
alternatives to accomplish the plutonium disposition mission, including 
reactor and non-reactor based approaches. DOE expects to complete the 
options analysis and an external independent review in the next 12-18 
months. It is now clear that the MO<INF>X</INF> approach will be 
significantly more expensive than anticipated--at a $30 billion 
lifecycle cost estimate--even with potential contract restructuring and 
other improvements that have been made to the MO<INF>X</INF> project. 
As a result, the MO<INF>X</INF> project will be placed in cold stand-
by, meaning we will cease all construction activities in order to 
minimize costs. The Fissile Materials Disposition request is $311 
million, including $221 million to put the MO<INF>X</INF> project in 
cold stand-by, while assessing more cost effective options. NNSA must 
immediately take prudent actions to commence lay-up to preserve our 
investment while minimizing costs. The remaining funding will continue 
to support activities for disposition of plutonium and highly enriched 
uranium.
    While much was accomplished under the 4-year effort, serious 
threats still remain. Significant stockpiles of highly enriched uranium 
(HEU) still exist in too many places, and global inventories of 
plutonium are steadily rising. DNN programs, working closely with a 
wide range of international partners, key U.S. Federal agencies, U.S. 
national laboratories, and the private sector will continue to remove 
and/or dispose of the dangerous nuclear materials that are still very 
much a part of our world today. The fiscal year 2015 budget request for 
other DNN programs provides funding to continue remaining high-priority 
nuclear and radiological threat reduction efforts, following completion 
of the accelerated 4-year effort activities. This includes $333 million 
for the Global Threat Reduction Initiative (GTRI) and $305 million for 
the International Material Protection and Control (IMPC) program. 
Fiscal year 2015 priority efforts include the removal of an additional 
125 kilograms of HEU and plutonium from high priority countries; the 
protection of an additional 105 buildings with high-activity 
radioactive sources; the consolidation of all category I/II material 
into a new high security zone at a nuclear material site in Russia; 
preventing illicit trafficking by closing key gaps in the radiation 
detection architecture through the provision of fixed and mobile 
detection equipment; and the initiation of new nuclear security 
activities in the Middle East.
    Another core program is DNN Research & Development (R&D) program, 
at $361 million in the fiscal year 2015 budget request. DNN R&D 
develops new technologies and methods that advance national and 
international capabilities to detect and characterize foreign nuclear 
weapons production activities and detonation events and the movement of 
special nuclear material (SNM). DNN R&D is a national-level program 
providing applied research and development in nuclear security and 
treaty verification technology leveraged by interagency partners at the 
Departments of Homeland Security, Defense and State, and the throughout 
broader U.S. Government.
    Finally, the Nonproliferation and International Security (NIS) 
program request is $141 million, which supports activities that prevent 
and counter WMD proliferation, including continued support of U.S. 
efforts to address proliferation by Iran, North Korea, and 
proliferation networks; implementation of statutory export control 
requirements; support for treaty verification and transparency; 
implementation of the Next Generation Safeguards Initiative to 
strengthen International Atomic Energy Agency safeguards; and efforts 
to reduce proliferation risks associated with the expansion of nuclear 
power.
    These activities are carried out in support of an interagency 
strategy for nuclear threat reduction and in close coordination with 
related programs in the Department of Defense, Department of State, and 
other agencies. Though difficult choices are inevitable in the current 
budget environment, NNSA continues to strongly support the nuclear 
nonproliferation mission. We are proud that the Office of Defense 
Nuclear Nonproliferation is responsible for delivering the majority of 
the pledges made by the United States under the Nuclear Security Summit 
process. The President and Energy Secretary recently represented the 
United States at the third such Summit in The Hague, where they 
highlighted additional commitments the United States intends to meet by 
the 2016 Summit, which will be hosted in the United States, and 
continued to encourage international commitment to and investment in 
meeting these critical nonproliferation challenges.
                             naval reactors
    The budget request for Naval Reactors is $1.4 billion, an increase 
of $282.1 million, about 25.8 percent from the fiscal year 2014 level. 
The request includes the base funding required to safely maintain, 
operate and oversee the Navy's 83 nuclear-powered warships. The Naval 
Reactors budget request includes three high priority programs: OHIO-
class Replacement submarine; refueling of the Land-Based Prototype 
reactor plant; and the Spent Fuel Handling Recapitalization Project. 
These new projects are essential to maintaining a credible sea-based 
strategic deterrent, to maintain the research and training capabilities 
of the Land-based Prototype, and to maintain the capability to safely 
inspect, store and package naval spent nuclear fuel.
         nnsa program direction--federal salaries and expenses
    NNSA Federal Salaries and Expenses (FSE), formerly ``Office of the 
Administrator,'' request is $411 million, an increase of $34 million or 
9 percent from the fiscal year 2014 level. The increase reflects two 
requirements: a $20 million one-time cost to fund the move of the NNSA 
Albuquerque Complex to a different leased facility, and a $12 million 
increase associated with the transfer of Corporate Project Management 
from the Weapons Activities account, consistent with Congressional 
direction in the fiscal year 2014 Consolidated Appropriations Act. The 
fiscal year 2015 Budget Request provides support for 1,710 Federal 
FTEs--a 9.3 percent reduction relative to fiscal year 2012 enacted 
levels--in response to today' constrained budget environment. FSE 
remains critical to supporting the NNSA mission and workforce.
    Separately in the fiscal year 2015 budget request, the 
Administration has proposed an additional $56 billion in funding across 
the Government through the Opportunity, Growth and Security Initiative 
(OGSI). The OGSI supports the President's broad vision for investing in 
growth, opportunity, and national security and advancing important 
Presidential goals while respecting the budgetary consensus developed 
under the Bipartisan Budget Agreement of December 2013. The OGSI 
allocates around $600 million to further support NNSA's critical 
mission and infrastructure investments.
                               conclusion
    The NNSA implements a vital mission, responsible for nuclear 
security at home and abroad, and delivering the technology, 
capabilities and infrastructure essential to a 21st century 
organization. An emphasis on mission effective and cost efficient 
nuclear security solutions will be critical for the NNSA to succeed in 
today's fiscal climate where difficult choices must be made but where 
our workforce continues to rise to the challenge and deliver.

                       THE MO<INF>X</INF> PROJECT

    Senator Feinstein. Thank you very much.
    The ranking member has just said that he would like to give 
up his time, to give it first to the distinguished Senator from 
North Carolina. I'd like to----
    Senator Graham. South Carolina.
    Senator Feinstein. Excuse me, South Carolina.
    Senator Graham. Close enough, close enough.
    Senator Feinstein. Well, thank God they're neighbors.
    Let me just sort of set the tone for the question that you 
want. We have appropriated more than $4 billion over the last 
10 years to MO<INF>X</INF>. The cost estimate was once $1.8 
billion; it is now $8 billion. The 2015 budget requests, as you 
stated, that the project will be put on cold standby. NNSA has 
not recommended an alternative to this date. The subcommittee 
cannot make a determination on the future of MO<INF>X</INF> and 
have confidence NNSA will eliminate 16,000 plutonium pits if it 
can't present a less costly alternative.
    So we need to know when the decision on completing 
MO<INF>X</INF> or pursuing an alternative, without getting into 
it--and I'll let Senator Graham get into it--will happen. So 
that's my first question. Let me ask it of Ms. Harrington: When 
will you make a decision on completing MO<INF>X</INF> or 
pursuing an alternative?
    Ms. Harrington. Thank you for the question. As we state in 
the report that was released yesterday, the preliminary study 
that has now been released, we expect within the Department to 
take another 12 to 18 months to refine the analysis and also to 
do much better cost estimation. As you all have pointed out, 
this is something that is necessary because we don't want to 
come back to you or any other committee in another 5 years with 
yet a different----
    Senator Feinstein. Okay, I got the answer. I want to be 
very brief so I can----
    Ms. Harrington. Okay. 12 to 18 months.
    Senator Feinstein. 12 to 18 months. Will putting 
MO<INF>X</INF> on cold standby increase costs over the long 
term? Yes or no?
    Ms. Harrington. We do not believe it will, because the plan 
is to continue construction this year, and then the cold 
standby will be conducted in a way that will allow full 
recovery if we agree that MO<INF>X</INF> is still the most 
viable option and we need to then resume construction and 
completion of the facility.
    Senator Feinstein. Well, I have a number of questions, but 
I'll wait and let Senator Graham go ahead and Senator Landrieu, 
and of course you any time you want. So why don't you go ahead 
at this time on MO<INF>X</INF>.
    Senator Graham. Before I start, I want to recognize Senator 
Landrieu's assistance. I cannot tell you how much I appreciate 
what you have done to help us in South Carolina keep this 
program on track.
    Madam Chairman, I think you've sort of nailed the dilemma 
we have. We've got two worthy goals: Modernize our nuclear 
deterrent force and making the world a bit safer. I'm going to 
be a bit harsh, so don't take it overly----
    Senator Feinstein. Sensitive.
    Senator Graham [continuing]. Harsh. Yes, don't be too 
sensitive. The bottom line is just not about MO<INF>X</INF>, 
but it's about what kind of relationship we're going to have 
with our States when they step up to the plate to do things.
    Is it true that in 2012 we negotiated an agreement with the 
Russians that we would use MO<INF>X</INF> as the vehicle of 
disposition for the 34 metric tons of weapons-grade plutonium--
--
    Ms. Harrington. Yes, sir.
    Senator Graham [continuing]. Subject to the agreement?
    Okay. Now, just think about that. 2012, we sit down with 
the Russians and we pick a technology. We've been dealing with 
this since the 1990s. And for an organization to come back and 
say, ``Are we 60-percent complete?''
    Ms. Harrington. We are actually closer to 40-percent 
complete, based on current budget estimates for completion of 
the facility.
    Senator Graham. Well, I will challenge that statement and 
I'll let the committee decide if we're 60 or 40.
    Why shouldn't everybody involved with this program be 
fired, to ask the Congress to stop the program, whether it's 
40-percent complete, 60-percent complete, after we've made a 
binding commitment with the Federation of Russia to go through, 
to accept a technology? Why shouldn't you all be fired?
    Ms. Harrington. The agreement in 2012 with the Russians was 
actually to allow them to change the technology that they would 
use.
    Senator Graham. Did we or did we not exclude every other 
technology but MO<INF>X</INF> for us?
    Ms. Harrington. For us at that time, we did choose 
MO<INF>X</INF>.
    Senator Graham. Yes. We'd been debating what to do for a 
very long time.
    So, Madam Chairman, South Carolina said: We will take this 
highly toxic 34 metric tons of weapons-grade plutonium, enough 
to make thousands of warheads, into our State, with the 
condition that it will go out of our State and the Federal 
Government will honor the commitment.
    So, number one, I don't accept for 1 minute this $25 
billion. So we're going to have a contest over are they right. 
Now, you've got to remember, these people that started the 
program, signed the deal with the Russians, and now want to 
stop it when it's over halfway complete. So I'm not going to 
accept your word for anything on this.
    Secondly, you're now telling the State of South Carolina: 
Well, let's start over. Let's wait another year, another 15 
months. To accept this material to begin with, we had one hell 
of a fight in South Carolina, where the existing Governor said: 
Don't accept this deal with the Federal Government; they will 
leave you hanging.
    Senator Feinstein. Say your last part?
    Senator Graham. They will leave you out to dry, because DOE 
has a bad habit of starting programs and stopping programs 
because they don't know how to finish a program. And that's 
going to affect the States eventually.
    Let me tell you about a success story. We had 50-something 
tanks of high-level nuclear waste from the cold war. We make 
tritium, we did make tritium and we still do, at Savannah River 
site for hydrogen weapons. We agreed to leave some residue in 
the heel of the tank rather than scraping it complete and 
sending it to Yucca Mountain, which doesn't exist, and that 
would save $16 billion over the life cycle of the tank farm for 
the Department, for the Federal Government, and we would accept 
a moderate risk level, almost I think very inconsequential 
environmental risk.
    You got our communities to save the Government $16 billion. 
Now you're asking the State of South Carolina and our friends 
in Georgia to accept the proposition that we've negotiated the 
deal with the Russians--and I don't look forward to talking 
with the Russians about changing any deal, because God knows 
what relationship we have with the Russians today.
    So, Madam Chairman, putting this in cold standby should be 
an affront to this committee. It is an affront to the people of 
South Carolina. And this idea of diluting plutonium and saving 
$16 billion is just an idea that I think will never bear fruit.
    Do you have an agreement where to put the diluted 
plutonium? Can you put it at the WIPP (Waste Isolation Pilot 
Plant)? Have they agreed to accept it?
    General Klotz. No, Senator, we have not engaged in that 
kind of discussion. The WIPP was used as a reference case in a 
preliminary analysis.
    Senator Graham. So you're going to start one program and 
you're going to look at another alternative with no agreement 
as to where you would put the diluted plutonium that you can 
inform the committee of?
    General Klotz. This is a first cut at that. As Ms. 
Harrington suggested, over the next 12 to 18 months----
    Senator Graham. General, you're a fine man, but why should 
this committee stand by and accept this from an organization 
who picked a disposal path, put it in an international 
agreement, has been sitting on the sidelines watching this 
program for 5 years, then all of a sudden, at the 50 to 60, 
whatever percent you want to agree upon, say, let's start over?
    That cannot be the way we deal with the State of South 
Carolina. It cannot be the way that this committee allows the 
Department of Energy and the NNSA to operate. We're talking 
about thousands of warheads that are going to be taken off the 
table, and that's very much at risk if we start over. We're 
talking about adding at least 3 years to the program. We're 
talking about breaking 50 U.S.C. 2566, which requires one ton 
of plutonium to be processed through MO<INF>X</INF> or shipped 
out of the State of South Carolina by 2016 or pay my State $100 
million a year for 5 years as a penalty that I wrote when we 
first accepted this, to give some assurance to the people of 
South Carolina we would not be left holding the bag.
    I don't want the $100 million. I want the MO<INF>X</INF> 
program to go forward because there is no viable alternative. 
It makes no sense to stop now. And if you want to reduce costs 
in MO<INF>X</INF>, I will sit down with the contractor and DOE 
and make sure it is as cost-effective as possible.
    Thank you, Madam Chairman, for recognizing the dilemma 
we're creating by destroying the nonproliferation budget, 
because that's what we're doing. I'm for two things. I'm for 
modernized weapons and I'm for getting some of this stuff off 
the table and keeping the commitment to my State. If it can 
happen to me it can happen to you.
    Thank you.
    Senator Feinstein. Could I ask you this question, Senator? 
Have you seen that? I haven't seen it?
    Senator Graham. What?
    Senator Feinstein. The document that's this new study.
    Senator Graham. It came out yesterday.
    Senator Feinstein. Have you had a chance to look at it?
    Senator Graham. No, ma'am, I have not.
    Senator Feinstein. Well, General, could you just give us 
the bottom line of that, so that--I don't know what's in that 
study. Senator Landrieu does. Is this the study?
    General Klotz. I'd be happy to----
    Senator Graham. Our office has seen it. I haven't had a 
chance to see it.
    General Klotz. I'd be happy to do that.
    Senator Feinstein. Well, can you just tell us?
    General Klotz. Well, what it does is it basically takes a 
look at five candidate options for disposition of excess 
plutonium, and they're laid out there. One is irradiation of 
MO<INF>X</INF> fuel in light water reactors. The second option 
is irradiation of plutonium fuel in fast reactors. The third 
option is immobilization in ceramic or glass with other high-
level wastes. The fourth option is the one that Senator Graham 
alluded to, downblending and disposal. The fifth option is 
something called deep borehole disposal, which basically means 
digging a----
    Senator Graham. I don't mean to interrupt. The only reason 
I mentioned diluting plutonium is because it was the only 
option that would have been cheaper. The others are just not 
going to happen, cost more.
    General Klotz. Then the report goes and assesses each of 
those options in terms of five different criteria. One is 
meeting international commitments, including the plutonium 
management disposition agreement which Senator Graham alluded 
to; costs, recognizing that right now those are very rough 
orders of magnitude. In fact, it's proven impossible up to this 
point to actually get good numbers for that fifth option; the 
deep borehole option; duration to begin disposition; technical 
viability; and then a host of legal, regulatory, and other 
issues that would attend any of those options.
    As I said, MO<INF>X</INF> is still very much on the table. 
The Secretary of Energy is committed to continue the process of 
dialoguing with the Congress over this as we work through the 
discussions on the budget this coming year. And it's clearly 
not off the table.
    But the perspective that we operate from is this is an 
extraordinarily expensive process, it's one the Nation's going 
to be committed to for a long time, whatever path we choose for 
plutonium disposition, and we have to make sure the one we are 
committed to as a Nation over the long haul to in fact do it 
this way and balance it against the other demands on the 
Department of Energy and NNSA budget in the area of weapons 
modernization and nonproliferation and preventing nuclear 
terrorism.
    Senator Feinstein. Thank you very much.
    Senator Landrieu and then the ranking member.
    Senator Landrieu. I'd like to follow up. I really 
appreciate the chairman allowing us to go ahead, because this 
project is so important, not just to South Carolina, but 
because the contracting, engineering, and leadership is coming 
out of Louisiana, we're very concerned as well.
    But also, as the chairman of the Energy Committee I have to 
be concerned about a project that initially--and correct me if 
I'm off here, but initially the idea was pretty revolutionary, 
to take nuclear weapons-grade material and dispose of it in a 
way that it could never be used again, found, recreated for 
weapons, but able to be used for peaceful purposes.
    That agreement was good on two big-picture issues. One, it 
absolutely made sure that this nuclear material can never be 
used for weapons anywhere in the world, by anywhere. In fact, 
the fuel, the spent fuel standard, is exactly that. It says, 
``The spent fuel standard would ensure the surplus plutonium 
can never be stolen or recovered and converted to nuclear 
weapons use by anyone at any time.'' That is the standard that 
we're supposed to be meeting. It's a high standard. But it was 
the standard that was negotiated with the Russians.
    Then the other interesting part of this on the energy-
producing side is that we could use it for our nuclear 
industry. So that's those two important issues that are now in 
jeopardy.
    The other issue is I think what Senator Graham raised, 
which would be concerning to any one of the 50 States, is once 
the Department starts a partnership with a State for a big 
project like this, that was not started haphazardly--there was 
a tremendous amount of science and engineering and thought and 
reports that went into this--once it's started, to pause or 
back up in the middle of it is another significant issue. 
That's really where South Carolina is coming from.
    But what I'm coming from is A: Trying to understand what 
your--what your grasp of the cost is. You say $30 billion. 
Somebody else said $10 billion. So can we get, just for the 
record here between at least you, what is your estimate if we 
continued moving forward from today at the agreement that was 
worked out with South Carolina, this standard negotiated with 
the Russians? What are you actually saying it will cost?
    Ms. Harrington. I'm happy to at least try to answer your 
question.
    Senator Landrieu. As briefly as you can. A number would be 
good.
    Ms. Harrington. We often--our estimate is approximately $30 
billion, and that----
    Senator Landrieu. $30 billion from now until----
    Ms. Harrington. The 34 metric tons is disposed of.
    Senator Landrieu. Is disposed of. Okay. Would you be open 
to information that might suggest it could be done less than 
that?
    Ms. Harrington. We are always open to that kind of 
information.
    Senator Landrieu. What was the original estimate of what 
this would cost?
    Ms. Harrington. The original estimate for----
    Senator Landrieu. That you made, the Department of Energy, 
that you made. When South Carolina said yes, you made the 
estimate. What was the original estimate?
    Senator Graham. Not just construction, but life cycle.
    Ms. Harrington. I do not have the full life cycle. It was 
$4.8 billion for the construction of just the fuel fabrication 
plant, not the other components for the life cycle.
    Senator Landrieu. I want to know, because I think it's 
important for the record of this committee to know what the 
Department of Energy estimated to be the cost of this project 
when it was launched with the Russians, with scientists in 
America, with South Carolina. You looked at everything. We had 
hearing after hearing after hearing on it. And it said this was 
the best option, this was what we needed to do. And what was 
that estimate? And what is it now, and why? Okay, and why?
    Then I think we can figure out how to move forward. We can 
then figure out what we might need to move forward.
    I want to thank the Secretary, and I appreciate the 
compliments from the Senator from South Carolina, for at least 
agreeing to not shut it down tomorrow, which was what was going 
to happen, and keep it open at least through September, to the 
end of this year, until we can try to get the answers to these 
questions, because there are advantages and disadvantages to 
moving forward, stopping, stalling, etcetera. But none of them 
are good. And we've got to figure out how this happened and fix 
it in the most efficient and effective way we can.
    I do have a question about nuclear strike command, but my 
time is up, so I'll come back to that.
    Senator Feinstein. Before you leave--when you asked for a 
number, as I understand it, you're asking for the number from 
the beginning through 15 years of operation; is that right? To 
be comparable with the $30 billion?
    Senator Landrieu. Yes.
    Senator Feinstein. I don't know what number you're asking.
    Senator Landrieu. This is what I'm asking for. I'm asking--
there's 34 metric tons, 8,000 warheads, that was the project, 
how to get rid of them in a way that did this: They could never 
be stolen, never be recovered, they could never be converted to 
nuclear weapons, that complied with the agreement with the 
Russians. There had to be an estimate of what that was going to 
cost, and I need to know what it was, and what it is now today, 
and what the difference is.
    Senator Graham. Would the gentlelady yield?
    Senator Landrieu. Yes.
    Senator Graham. I can assure you that we have that 
information because South Carolina would not have entered into 
this agreement unless you had--that's why we have the statute. 
It was supposed to be operational in 2014. It slipped a couple 
years.
    I don't want the $100 million, but the information is 
available. We just didn't make up a number. The life cycle cost 
was projected to be X. Now it's projected to be Y. I can 
provide you X.
    Senator Landrieu. But so should they be able to since it's 
their project.
    Senator Graham. Yes, I would think. But I can do that.
    General Klotz. We'll break that information down.
    Senator Landrieu. Please break that down, because--I'm 
sorry. The only thing I want to say, Madam Chair, because you 
do this better than I do. Believe me, I've been around here a 
long time and admired your skill at this.
    But one reason we have to understand this is because if we 
underestimated this by, let's say, 1,000 percent, we need to 
make sure we never underestimate anything by 1,000 percent any 
more. And what it was that got us so off base at the start. And 
if we didn't underestimate it and we had a pretty good idea of 
what it was, then why in the heck didn't we fund it? That's 
another interesting point.
    The other final thing I'll say about it is I want the 
American people to understand, and I think they do: This is all 
the cost of war. This is paying for the cold war when we made 
these weapons. And we won the cold war, but it was expensive, 
and we're still paying for it.
    So when we go to war, we should figure out how to get our 
troops over there, how to get our troops back, and then how to 
pay for the tail that goes long into next generations. And 
we're doing the same thing in Iraq and Afghanistan right now.
    So this from a million different perspectives is a very 
important issue to understand and to get resolved.
    Senator Feinstein. Thank you, Senator.
    Please, Ranking Member, go ahead.

                         PLUTONIUM DISPOSITION

    Senator Alexander. Thank you. I'd like to continue the 
discussion. This is very helpful and it's helpful to have the 
Senators here who are so affected by it.
    Mr. Administrator or Ms. Harrington, we're talking about 
turning nuclear weapons into fuel. That's what we're talking--
Russian nuclear weapons into fuel. How many nuclear warheads 
have already been turned into fuel over the last 20 years or 
so, roughly?
    Ms. Harrington. From plutonium or----
    Senator Alexander. From plutonium.
    Ms. Harrington. We have not done that in the United States. 
We do not produce mixed oxide fuel here yet. The French, of 
course, have been using that type of fuel for several decades.
    Senator Alexander. Well, under the agreements we've had how 
many, how many--then where did we get the fuel that for a 
couple of decades has been used to provide electricity in the 
United States?
    Ms. Harrington. That was from Russian weapons-grade highly 
enriched uranium.
    Senator Alexander. And that was downgraded into fuel?
    Ms. Harrington. Correct.
    Senator Alexander. This we have not--so we've not done any 
with plutonium?
    Ms. Harrington. We have not yet, sir.
    Senator Alexander. If we did not do any with plutonium, how 
many nuclear warheads--how many are waiting for that process 
right now? Is there any rough estimate of that? 100, 1,000, 
2,000, 3,000?
    Ms. Harrington. We are already in the process of 
dismantling pits that are withdrawn from the stockpile.
    Senator Alexander. The Russian stockpile.
    Ms. Harrington. No, no, no, from our stockpile. The 
Russians are doing the same thing on their side. And we are 
turning those pits, working both with the State of South 
Carolina and with Los Alamos National Laboratory, we're turning 
those pits into the oxide that can feed into the MO<INF>X</INF> 
fuel fabrication----
    Senator Alexander. So we're doing our plutonium pits and 
they're doing their plutonium pits?
    Ms. Harrington. Right.
    Senator Alexander. And how many of their nuclear weapons 
are they doing, or remaining to do, do you suppose?
    Ms. Harrington. We don't have a count on that, but----
    Senator Alexander. It might be a few thousand?
    Ms. Harrington. Yes.
    Senator Alexander. It could be.
    Ms. Harrington. But when we do go into the actual 
disposition process, we are working with the International 
Atomic Energy Agency on a monitoring regime so that both we and 
the Russians and the international community can be assured.
    Senator Alexander. What I'm getting to--so if we were to 
stop, they might stop. Possible? We agreed to do this to our 
plutonium pits, they agreed to do it to theirs. And if we 
stopped that would be breaking our agreement, would it not?
    Ms. Harrington. The plutonium management disposition 
agreement also allows for other paths to disposition as agreed 
by the parties.
    Senator Alexander. But if we were just to say we're not 
going to do it any more, that would be breaking our agreement?
    Senator Feinstein. Absolutely.
    Ms. Harrington. That would, but we have never said that.
    Senator Alexander. I know, but if we were to say that.
    Ms. Harrington. If we were----
    Senator Alexander. I'm just trying to get----
    Ms. Harrington. Yes.
    Senator Alexander. Where I'm trying to get into this is 
we've struggled on a different type of project. I want to get 
back to the red team project that we talked about. We've had a 
related trouble. Mr. Administrator, you're brand new to this--
this position, I mean, not to the whole subject. But we've 
really struggled, for example, with the uranium facility in Oak 
Ridge trying to figure out what do we do about a facility that 
starts out at $100 million and next thing we know it's $2 
billion, and then it's $3 billion, and then it's $5 billion, 
then it's $6 billion, then it might be $10 billion.
    As I said--Senator Feinstein and I said we at least want to 
have it under design before we start construction, and we want 
to meet with somebody on a regular basis. So the result of that 
was adopting the red team review that is used in the Office of 
Science and applying it to one of the NNSA projects. And 
apparently--now, this is a different facility--but apparently 
in 90 days they've come back to us with a recommendation.
    Now, what we said to them was we're not going to spend more 
than $6.5 billion and we have to have everybody out of this 
dilapidated building by 2025 and we have to meet our mission. 
And apparently this group of experts, mostly from within the 
Department I think, from different laboratories, have spent 
less than 90 days and they've come back to us with what looks 
like a perfectly obvious central solution, which is: Don't put 
everything into a high security building because a lot of 
things don't need to be there. They can be in a low security 
building and that could save lots of money.
    In other words, they kept the mission and they've made a 
recommendation, and they did it in 90 days, and they said keep 
doing the review.
    Would it not make sense--I'm wondering why we need 18 
months on this. I mean, if we were to keep our mission, which 
is our agreement with Russia and our deal with South Carolina, 
why would we not have a similar sort of red team to within 90 
days take a look at this internal report which you've just 
released yesterday and tell us, what is the low-cost 
alternative that would permit us to do what the agreement said 
it would do and to do it at under X amount of money and to do 
it by Y time?
    Why would that not be a useful thing to do? Or would you 
say that's what you've just done?
    Senator Feinstein. Good question, yes. Good question.
    General Klotz. That's what they're in the process of doing. 
This is the preliminary results on that, and I think----
    Senator Feinstein. Can you please use your mike?

    Senator Alexander. But, Mr. Administrator, who's in the 
process of doing it?
    General Klotz. This is being led by a team that includes 
members of the Department of Energy and NNSA.
    Senator Alexander. Why has it taken so long to do?
    General Klotz. I don't have an answer to why it's taken so 
long.
    Senator Alexander. Well, why wouldn't you do something like 
we just did with the uranium project? I mean, they did that in 
90 days. They took a lab director, he assembled 25 people. They 
spent a week on the project. They did a week of homework. They 
came a week back into the project, and they've come up with a 
report.
    Now, let's say this is twice as complicated to answer the 
question, what is the low-cost alternative? That's 6 months. At 
least that would be an independent--that would take all the 
good work that's been done for the report yesterday and give us 
some--give you, I would think--some fresh information about 
whether anybody's got a better idea.
    General Klotz. I think that's an extraordinarily perceptive 
point. There is a difference, however, between what we did at 
Los Alamos with the plutonium strategy----
    Senator Alexander. Right.
    General Klotz [continuing]. And what we did--what we have 
suggested being done at Y-12 with the UPF (uranium processing 
facility). Essentially, construction had not yet begun on those 
particular projects.
    Senator Alexander. The uranium.
    Senator Feinstein. Well, at Los Alamos it had, the 
plutonium. Wasn't that where the roof was too low?
    Senator Alexander. No, that's the uranium project.
    No, I understand your point, sir. But it's still an 
interesting way to solve a problem, and it's perfectly simple 
and perfectly elegant to take someone whom you have great 
respect for and say, pick 25 of the smartest people, do this 
intensive 90-day review, do it in the same way they looked at 
the uranium project, a different problem, but focus on the low-
cost alternative in a way that will permit us to meet our 
mission in the time frame that we give you, beneath a cost that 
we give you.
    They might come back and say, ``We can't do it, it can't be 
done.'' Then we will have to decide, well, are we just going to 
break our going and leave all those nuclear weapons where they 
are? And I don't think we'll do that. Or we'll have to decide 
we're going to have to pay for it. But if we're going to have 
to pay for it, we need to know, even though we're halfway 
through the project, we need to know that we've got the low-
cost alternative in front of us. At least that's my view.
    Senator Feinstein. Yes, excellent point, absolutely.
    Senator Alexander. Thank you, Madam Chairman.
    Senator Feinstein. Thank you.
    Senator Alexander. I overran my time.
    Senator Feinstein. Before recognizing Senator Hoeven and 
when the two Senators are here that are so concerned, I'm 
really concerned about breaking an agreement with the Russians 
at this stage and increasing funding for life extension 
programs, not with Ford-type technology, but Cadillac-type 
technology. I really think it presents a huge dilemma to this 
country in terms of keeping its word in agreements, and 
particularly with a very powerful country that right now is at 
sixes and sevens with us and everybody else.
    To say we're not going to keep our agreement and go ahead 
with the B61, I have a big problem with. Now, I just want to 
put that on the table. It seems to me, Mr. Klotz, you have now 
a challenge to work this out. I'm really not sure that the 
right decision has been made. I know MO<INF>X</INF> runs over 
budget, substantially. But I agree with Senator Alexander. And 
you're now a new brain in this. You've got to break whatever it 
is in this Department that ends up with this egregious 
situation, not once, not twice, not three times, but a half to 
a dozen times. It's really a problem.
    General Klotz. Thank you for that comment, Senator.
    Senator Landrieu. Are you sure you want this job?
    Senator Alexander. It's probably easier being General, 
right?
    General Klotz. Now that the Senate has voted, I think I'm 
stuck with it, Senators, but delightfully so.
    No, we will not break our agreement with the Russians on 
this particular thing, because the disposition of excess 
plutonium is in our national security interest as well as the 
national security interests of our allies and partners across 
the world. This is an important thing to do, so we will not 
break that agreement. We are committed, this Administration is 
committed, to the disposal of excess plutonium, and that will 
go forward.

              COST ESTIMATE FOR THE MO<INF>X</INF> PROJECT

    Senator Graham. Madam Chairman.
    Senator Feinstein. Yes.
    Senator Graham. We've looked through our office files here 
and on April 11, 2002, the Secretary of Energy, Spence Abraham, 
wrote to the Governor of South Carolina, then Jim Hodges, 
laying out the commitment to the MO<INF>X</INF> program, 
because there were concerns that the Federal Government would 
back out. He said, ``The commitment of the Department of 
Energy, backed up by language in the President's fiscal year 
2003 budget, to request all needed funds to carry out this 
program at Savannah River, estimated to be $3.8 billion over 20 
years.''
    Senator Feinstein. Well, there we are. There we are. Now, 
the question is: What are we going to do about it? I think this 
whatever you call this cold hold thing, I don't know what it 
really accomplishes. There ought to be a way to figure--and 
Senator Alexander sort of laid out a procedure. Why don't you 
try that with respect to MO<INF>X</INF>? I'm sorry?
    General Klotz. Yes, ma'am, I think that is clearly, 
Senator, something that we ought to factor into how we proceed 
with fleshing out these particular ideas.
    Senator Feinstein. Is that a commitment that you will?
    General Klotz. It's a commitment from the Administrator of 
NNSA that we will look at that approach as a way of ensuring 
we've got the best minds and innovative minds and out of the 
box thinkers of how to approach the various options that have 
been laid out, including the MO<INF>X</INF> option.
    Senator Feinstein. Well, let me make this request: That you 
come to Senator Alexander and myself with a process within the 
next 2 weeks to take a relook at the MO<INF>X</INF> numbers 
with potential changes that can be made to keep the price down.
    General Klotz. We'll come see you in 2 weeks.
    Senator Feinstein. Okay, it's on the record. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    General Klotz, congratulations on your appointment to the 
new position, obviously a very important position. But I want 
to thank you for your tremendous service in the United States 
Air Force and your service at Minot Air Force Base and tell you 
how much we appreciate you and all you've done and the great 
track record that you've built on behalf of this Nation, and 
certainly look forward to working with you in this important 
capacity.

                          W78 AND W88 WARHEADS

    My first question relates to the W78 and W88 warheads. I 
want to understand from you how that--how the planning and the 
budgeting is going forward, both in terms of consolidating the 
two so that they can be used, so we have one warhead that can 
be used on either ICBMs or SLBMs, and then also the funding, 
because the funding has been pushed back so dramatically in the 
DOD (Department of Defense) budget. Tell me, how much risk are 
we assuming and how are you going to get something going on 
updating and modernizing the W78 and the W88 warheads and are 
you going to do it as one warhead or keep them separate?
    General Klotz. I'm going to say just sort of a general 
statement if I could, then ask Dr. Cook to address this because 
he is the technical expert on the very question you ask.
    One of the things that was part of the decisionmaking that 
went into the fiscal year 2015 budget proposal was this need to 
balance within the constraints that were imposed by budget 
acts, by fiscal reality. As Senator Feinstein has indicated, 
there were just some tough decisions that had to be made in the 
defense nuclear nonproliferation account. There were also tough 
decisions that had to be made in the weapons account. So even 
though the overall numbers are going up, there have also been 
some adjustments to the schedule.
    Don, perhaps you would like to talk specifically to W78.
    Senator Hoeven. Well, what I'm specifically concerned about 
is how we're getting going on this modernization. So I want 
some specific response both as to are you looking at turning 
the two warheads into one and how you're going to get this 
going, because you zeroed out now for the out years through 
2019 and you need to get going on this modernization program.
    Dr. Cook. We have a joint agreement with the Department of 
Defense and the focus on modernization that we reached in tight 
budget times was that we would continue very strongly the 
modernization of the 76, the 76-1. That will be completed now 
by the end of 2019. The next priority is the B61 Mod 12 air-
delivered bomb. That will reach its first production unit by 
March of 2020, in fiscal year 2020.
    The third priority is W88 arming, fusing, and firing 
system, known as W88 Alt-370. All three of those were agreed 
with the Department of Defense. The consequence of prioritizing 
those under a constrained budget was when we looked at the 
weapons systems and we looked at the surveillance data we 
didn't have enough money to do everything. So we deferred the 
first interoperable weapon, the 78/88-1, by 5 years, from first 
production unit in 2025 to the first production unit in 2030.
    Based on the surveillance data that the labs annually 
provide, working with our plants each year, we believed that it 
was a reasonable thing to do to take the risk of something 
turning up that we haven't identified yet. Those systems are 
aging predictably. So we put priority on the first three parts 
of the life extension program, knowing that we'd come back to 
revisit.
    Now, it remains the program of record in the 3 Plus 2 
strategy agreement with the Department of Defense and Energy 
and all of our entities still to have an interoperable weapons 
system, but by 2030 rather than 2025.
    Senator Hoeven. Is that going to work? In other words, with 
the W78's and W88's you have you believe then that your systems 
will be maintained adequately----
    Dr. Cook. Yes, sir.
    Senator Hoeven [continuing]. In that time frame?
    Dr. Cook. Yes, sir.
    Senator Hoeven. Switching then to the cruise missile, the 
air-launched cruise missile, ALCM, gives us an incredible 
standoff capability that I think is vitally important, 
particularly as other countries upgrade their air defense 
systems. What are you doing, both in terms of refurbishing the 
existing cruise missile warhead, but then also developing the 
replacement program because again you push back the time line 
here.
    So explain to me how we're going to maintain that standoff 
air-launched cruise missile capacity which is so vitally 
important for our Air Force?
    Dr. Cook. A similar answer. The option that we had with the 
Department of Defense and agreed on was to take a 3-year 
deferral, but not longer, with the air-launched cruise missile 
replacement and to see whether we could bring that forward, not 
push it further, in work this year and as we go forward. So 
there we're beginning the early phase--it's called the 6-1--
getting the mission requirements right, doing pre-conceptual 
things. We begin that in July of this year. So we're not 
standing by or just deferring.
    The first production unit is 2027. Once again, we believe 
we can support the present system in the W80 out to about 2030, 
but we're not proposing any further delay. So we're beginning 
the conceptual work that would lead then into engineering work.
    Senator Hoeven. And I would encourage that we continue that 
and try to find funding to make sure that we can advance that 
program, given the importance of that system.
    Dr. Cook. Yes, sir, we'd like to do that, and we certainly 
would enjoy your support.
    Senator Hoeven. Thank you.
    Again, General Klotz, congratulations on your new position 
and very much look forward to working with you.
    General Klotz. Thank you, Senator.
    Senator Hoeven. Thank you, Madam Chairman.
    Senator Feinstein. Thank you, Senator Hoeven.

                       NATIONAL IGNITION FACILITY

    I have a question, Dr. Cook. I had the privilege 2 weeks 
ago of visiting Lawrence Lab. We had a good discussion about 
the problems the NIF (National Ignition Facility) is facing in 
achieving ignition. According to the lab director, in 2 years 
NNSA will be able to assess whether ignition on NIF is 
possible.
    So here's the question for the record: In 2 years will you 
be prepared to tell Congress whether achieving ignition on NIF 
will be possible?
    Dr. Cook. That is our plan, so the short answer is yes. We 
have had 1 year down in a 3-year process that we said we'd 
develop a community consensus plan; we'd improve the efficiency 
of operations; we'd broaden NIF to do stockpile stewardship as 
well as a drive toward ignition. The progress that is being 
shown by a team that's now a well-integrated team under some 
new leadership frankly is really pleasing to see.
    I should also say the laboratory was very happy with your 
visit, Senator. They appreciated the attention and your 
concerns were clearly understood.
    Senator Feinstein. Well, we had a very frank discussion. 
I'll put it that way.
    Dr. Cook. That helps.
    Senator Feinstein. So I am very concerned. We've spent $329 
million a year on these operations and I think it's important 
that they have a path to get there. Whether they can achieve 
ignition is another story. But at least I felt that there was a 
new plan and a way to move ahead. I don't know whether that's 
viable or not, and I'd just like to urge you to watch it very 
carefully.
    General Klotz. I will do that indeed. In the year that has 
elapsed since last year, some outstanding progress has been 
made. So as far as the central fuel, now enough fusion is 
occurring to equal the amount of compressive work in the fuel. 
That is the first time ever achieved. And on the basis, not 
just of what the hopes are and the schedules and the Gantt 
charts, but real technical progress, there is a belief that we 
have got the right team, the right leadership, and the program 
is now driving forward on a scientific basis, which really is 
required.
    Senator Feinstein. Well, I'm really happy to hear that 
because prior to this Senator Alexander and I were hearing, 
well, this scenario didn't work and that scenario didn't work, 
and then they didn't know quite where to go. So what you're 
saying is you believe that there is now an opportunity to make 
substantial progress.
    General Klotz. Absolutely, yes.
    Senator Feinstein. Okay. Thank you very much.
    I also visited the Berkeley Lab and I might just say that 
the excitement and the use is just incredible, with all those 
people coming in and doing their experiments. It's really a 
bustling place. So I hope something positive comes out of all 
of that.
    General Klotz. Yes, thank you.
    Senator Feinstein. Thank you.
    Mr. Vice Chairman.

        DEPARTMENT OF ENERGY REORT ON THE MO<INF>X</INF> PROJECT

    Senator Alexander. I just have a couple of questions. I 
look forward to our discussion, Mr. Klotz, General, that 
Senator Feinstein asked about in a couple of weeks, so we can 
talk a little more about the MO<INF>X</INF> report that came 
out yesterday.
    Briefly, who did that report and what was the process, the 
one that came out yesterday?
    General Klotz. The process was the Secretary of Energy when 
he came in asked one of his senior advisers----
    Senator Alexander. The current Secretary?
    General Klotz. The current Secretary, John McWilliams, who 
I believe has been up, if not to brief you directly, certainly 
interacted with the staff. And he took the lead on assembling 
talent within the Department of Energy and elsewhere to develop 
this particular paper and has the lead for continuing the 
deeper dive and getting more fidelity in terms of the numbers, 
the costs, the regulatory issues that are associated with each 
of the options that are laid out.
    Senator Alexander. How much time did they spend on it? Did 
they just have a meeting about it or did they all go down to 
South Carolina and spend a week?
    General Klotz. Oh, I think they've made lots of trips to 
South Carolina. They have been involved in this process longer 
than I have been involved in the process of being nominated and 
waiting for confirmation, because one of my very first meetings 
as a new nominee preparing for the confirmation hearing was 
with this team.
    Senator Alexander. Well, how long did they work on it?
    General Klotz. Do you know when this particular start was?
    Ms. Harrington. It was about a year ago, probably last 
June----
    General Klotz. About a year.
    Ms. Harrington [continuing]. That we started on this, and 
the team visited South Carolina; they went to Pantex; they went 
to Los Alamos. They visited all the sites that were involved in 
any way.
    Senator Alexander. How big a team?
    Ms. Harrington. It was----
    Senator Alexander. Four or five or twenty?
    Ms. Harrington. Oh, no, it was a larger team than that, 
including a number of personnel from the South Carolina 
facility.

                      AMERICAN CENTRIFUGE PROJECT

    Senator Alexander. Second, Mr. Administrator, as you go--I 
don't need an answer to this now, but as you go from the sudden 
bankruptcy of the USEC project to figuring out what to do with 
it, that's going to cost some money. We're going to need to 
know how much money that costs once you figure out how you're 
going to do it.
    May I respectfully say that any time in the Government you 
go from--you're in a situation like that, it's going to get 
overly complicated by lawyers and others because it'll be an 
unfamiliar path and people will say, budget people and 
lawyers--may I ask you to keep an eye on this so that you can 
cut through the red tape, so that the people who you're 
expecting to give you a recommendation are able to do that 
without running into sudden surprises and bureaucratic snafus? 
It'll probably take your stature to make sure that that 
happens.
    Thank you very much.
    Senator Feinstein. If I might say, I think we need to know 
about exactly what happened at USEC and why and what the future 
holds. I think we need to do that quickly. So what is the 
request for USEC in this? Zero. So it will not be funded in 
2015. So what happens?
    Senator Alexander. Well, it'll probably have to be, Madam 
Chairman. It'll probably have to be.
    Senator Feinstein. Well, that's where I'm going.
    Senator Alexander. So we need----
    Senator Feinstein. We need to know.
    Senator Alexander [continuing]. To know pretty quick in 
order to----
    Senator Feinstein. Because as I recall, we extended funds 
once or twice? Twice?
    Senator Alexander. Twice.
    Senator Feinstein. Twice, sort of against----
    Senator Alexander. We were skeptical.
    Senator Feinstein. I was going to say our better judgment, 
and I didn't want to do that. But we were better skeptical that 
the management was going to be able to solve the problems. What 
we were told is, well, there was one very good manager there 
now, a big company, et cetera, and it could be solved. Well, 
clearly it wasn't.
    So I would also like us to know why wasn't it solved? What 
happened after extending it twice? Can you give us an answer to 
that?
    General Klotz. I can't give you an answer to that. It 
doesn't fall under the ambit of what the NNSA does. But the 
larger Department of Energy can. Our interest in this is 
preservation of the technology and any intellectual property 
because of its relationship to development of low-enriched 
uranium, unobligated low-enriched uranium, which in turn 
affects our ability to produce tritium. So that's the NNSA's 
specific interest in this.
    I must also say, given the reputation of Oak Ridge National 
Laboratories, being a center of excellence in this area and the 
superb work that the Director there, Tom Mason, did on our red 
team report as it relates to UPF, I think we put it in the 
right place to advise the Department and assist us as we work 
through how we preserve that.
    Senator Alexander. Madam Chairman, I think my opinion is 
that we provided money to see if we could prove the technology, 
which was primarily for a--well, which was also for a 
commercial purpose. The bottom dropped out of the commercial 
market. There wasn't any demand for it and it went bankrupt.
    Now where we are is we need it for at least a national 
security purpose, which is a different objective when taken 
alone. So the problem that we need to know, Mr. Administrator, 
is, you're going to have to figure out what we need it for and 
how we need it and what we do with it. In the meantime, we're 
going to have to know in a few weeks how we're going to get 
from this year to next year to permit you to do that. So for 
our appropriations process, if you'd please stay in touch with 
us and with our staffs. We need to know enough about what your 
plans are and what your financial needs are to make sure that 
we preserve the technology for national security purposes. And 
we're moving on a pretty fast track here in this subcommittee.
    From my point-of-view, that doesn't need to be a final 
decision on what kind of--what we do to preserve this 
technology, because you may come up with some very different 
ideas about what we need to do and who should do it and how to 
do it. I want you to be free to do that. But this sudden 
bankruptcy is something we have to deal with.
    That's, Madam Chairman, that's the only other comment that 
I would have.
    Senator Feinstein. I was under the impression that it 
wasn't the fact that the economy, that the economic part wasn't 
right. I was under the impression that it was a management 
issue.
    Senator Alexander. They had some--my view is that they had 
some management problems, they did. But I think they would 
argue that they proved their technology, that it would work, 
but they had no place to sell it on a commercial basis. So the 
question is, unless we want to give up a domestic supply of 
this technology, we have to recover it and figure out what to 
do with it.
    Senator Feinstein. Well, I need to be--I'm not sure--I 
always agree with you. I'm not sure I agree with you on that. I 
really need to know more about what happened at USEC because I 
remember well the two extensions and what was going to be done 
and the problems were going to get solved.
    I have a little different recollection. I don't remember it 
being based on economic viability, but I could be wrong. So 
that's what I want to know. Would you please get me a memo on 
that point or have somebody do it? I would appreciate it. 
That's the reason for the bankruptcy, and whether--the 
recommendation as to whether there is a viable national 
security interest, I would like that recommendation.
    Senator Alexander. And when do we need a recommendation 
about what to do in the next year and what funding is needed? 
When do we need that?

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Feinstein. Well, I'm always sooner rather than 
later.
    Senator Alexander. Two weeks?
    Senator Feinstein. Two weeks before we mark up.
    Senator Alexander. If it's going to be included in the 
appropriations process in an orderly way, we need that in a 
couple of weeks.
    Senator Feinstein. Yes, right.
    General Klotz. We're getting a list of a lot of things due 
in 2 weeks. But we'll make it.
    Senator Alexander. It'll be easier for the Department, I 
think, if whatever you recommend is accepted by the Congress, 
to make it part of the orderly process, rather than come in 
late with it. We know that you didn't cause the bankruptcy and 
this is a sudden development. But that's just the schedule 
we're on.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General Frank G. Klotz
              Questions Submitted by Senator Patty Murray
    Question. Administrator Klotz, President Obama has reiterated on a 
number of occasions the importance of combatting the nuclear threat 
with nonproliferation activities being a vital element. Most recently, 
while at the Nuclear Security Summit in March 2014, President Obama 
called for an acceleration of further nonproliferation efforts between 
now and the next summit in 2016. Specifically, the United States 
pledged to complete and or make measurable progress in:
  --Establishing an international effort on the feasibility of 
        replacing high-activity radiological sources with non-isotopic 
        technologies, with the goal of producing a global alternative 
        by 2016; and
  --Expanding and accelerating domestic and international capability to 
        arrest nuclear smugglers, seize illicit nuclear materials, and 
        effectively prosecute perpetrators.
    While these are noble and important goals, they will be difficult 
to achieve given that the fiscal year 2015 budget request for the 
National Nuclear Security Administration (NNSA) continues a trend of 
declining budgets for Defense Nuclear Nonproliferation programs. How 
does NNSA intend to meet these goals in light of the proposed 
reductions to the International Materials Protection and Cooperation 
and the Global Threat Reduction Program?
    Furthermore, I understand the Secretary of Energy's Advisory Board 
is undertaking a strategic review of the Defense Nuclear 
Nonproliferation programs at the request of Secretary Moniz. What is 
the rationale for proposing to reduce funding for Defense Nuclear 
Nonproliferation programs before this strategic review is complete?
    Answer. With the exception of MO<INF>X</INF>, the current funding 
request is in line with funding levels before the acceleration needed 
to implement the President's 4 year effort. Due to the successful 
completion of the 4-year effort this past December, it is logical to 
see some funding reductions to the two key programs that supported this 
effort (Global Threat Reduction Initiative and the International 
Material Protection and Cooperation program). In the current budget 
environment, difficult choices are inevitable, but we believe that at 
this funding level, we will still be able to fully support the 
President's nonproliferation priorities, as well as have the 
flexibility to take advantages of new priorities and opportunities.
    The Administration and DOE/NNSA remain committed to our nuclear 
nonproliferation and nuclear modernization objectives, consistent with 
the President's vision of reducing nuclear dangers and our reliance on 
nuclear weapons. As a demonstration of our continued commitment to 
nuclear security as a priority, the fiscal year 2015 budget request 
provides funding to continue remaining high-priority nuclear and 
radiological threat reduction efforts, following the accelerated 4-year 
effort activities.
    The Secretary of Energy's Advisory Board strategic review of the 
Defense Nuclear Nonproliferation programs began after the development 
of the fiscal year 2015 Congressional Budget Request. This review in 
addition to our ongoing periodic reviews of all our programs will 
inform the development of the fiscal year 2016 Congressional Budget 
Request.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Administrator Klotz. Sandia National Labs Director 
Hommert recently testified before SASC that there are three major 
phases to the B61 Life Extension Program (LEP): Design, Component and 
System Qualification, and Production. According to Dr. Hommert, in 
fiscal year 2015 Sandia will be 95 percent done with design and ready 
to move towards a first flight test of the B61-12. While the B61 LEP 
does have a high price tag, it is remarkable, that with the exception 
of some delay due to the shutdown and issues with Congressional 
funding, the B61 LEP is largely still on time.
    Administrator Klotz, do you agree with the lab directors that the 
funding in the President budget is needed to keep the B61 LEP on track 
and that cuts in funding would result in unnecessary delays to both the 
B61-12 and future LEP's for other weapons systems?
    Answer. Yes, funding the President's fiscal year 2015-2019 Request 
is necessary to keep the B61 LEP on track. A reduction in funding would 
delay the first production unit and subsequent full production. This 
would also create production challenges with other LEPs scheduled for 
the same time.
    Question. What other risks are there to the strategic deterrent if 
the B61-12 LEP were cut or scaled back, and would this have a 
detrimental impact on this and other weapons systems such as the W78/
W88 LEP?
    Answer. Cutting the B61 LEP funding would delay delivery of the B61 
to our stockpile and to that of our NATO partners. If we cut or scale 
back the B61-12 LEP, we would need to conduct maintenance on our 
existing stockpile for longer and undertake LEPs or modifications for 
the B61 Mods 3, 4, 7, and 10 and the B83. The increase in workload 
during 2020 through 2030 would impact the W78/W88-1 LEP which has 
already been moved to the right and other LEPs such as LRSO.
    Question. The B61 LEP is important, but really just the tip of the 
iceberg when it comes to problems the NNSA is facing with the nuclear 
enterprise. For example, the NNSA has had a terrible record managing 
large projects such as the Chemistry and Metallurgy Research 
Replacement (CMRR)-Nuclear Facility (NF) facility in Los Alamos. With 
the planned closure of CMR in 2019, the United States may soon be 
without an analytical chemistry and materials characterization 
capability for analysis of plutonium. This is just one example of the 
problems facing NNSA.
    Do you support the CMRR modular option at Los Alamos, and what 
funding is needed to carry out this project?
    Answer. Yes, I support the proposed modular concept to build new 
space in Technical Area (TA)-55 at Los Alamos. Based on the decision to 
delay construction of the CMRR-Nuclear Facility (NF), a plan to 
maintain continuity in analytical chemistry and materials 
characterization by optimizing existing facilities is being developed 
in coordination with Los Alamos National Laboratory. The near-term need 
is to execute the work in the Radiological Laboratory Utility and 
Office Building (RLUOB) and Plutonium Facility (PF)-4; the proposed 
modular construction is a longer-term plan to provide new space to 
accommodate capacities beyond 30 pits per year and extend the life of 
PF-4. The modular concept is still in the pre-conceptual design phase, 
we'll develop a baseline as the project matures to inform future budget 
requests; a small portion of the reprogrammed funds is being used for 
pre-conceptual design activities.
    Question. Can I have your assurance that you will work with the 
Augustine/Mies NNSA governance panel which myself and Senator Kyl 
worked to create to address the systematic governance issues at the 
NNSA and what are you doing to proactively address these issues ahead 
of the panel's final report?
    Answer. Yes. My staff and I will thoroughly review the 
recommendations when they become available and will be proactive in 
meeting with the panel to discuss specifics.
    Question. Do you agree that the B61-12 which will consolidate the 
B61 -3, 4, 7, and 10, will ultimately result in less fissile material, 
a weapon which is more accurate and requires a smaller yield, and the 
eventual elimination of the B83, the most destructive weapon in the 
U.S. arsenal, thus serving the dual purpose of sustaining the B61 while 
reducing our arsenal?
    Answer. Yes, absolutely. All of these things will be realized with 
the accomplishment of the B61-12 LEP.
    Question. If there were cuts to the B61 LEP and other portions of 
the stockpile stewardship program, is the administration concerned that 
this could put in question the credibility of the deterrent and the 
United States support for the nuclear enterprise as a whole among our 
allies and adversaries?
    Answer. The capability offered by the B61-12 is important to our 
Allies and partners and demonstrates our commitment to extended 
deterrence. Canceling the B61-12 LEP would complicate U.S.--NATO policy 
commitments to the nuclear deterrence mission, and risks reducing 
other, non-NATO Allies confidence in U.S. extended deterrence.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. Lady and gentlemen, thank you very much. 
It's appreciated. Admiral Richardson, you got off unscathed. So 
thank you, and our hearing is adjourned.
    [Whereupon, at 3:55 p.m., Wednesday, April 30, the 
subcommittee was recessed, the reconvene subject to the call of 
the Chair.]
</pre></body></html>
